No. 19-454
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL, PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via e-mail and first-class mail, postage prepaid, this
2ND day of March, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h) I certify that the document contains 12,981
Words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 2, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 2, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0454
TRUMP, DONALD, J., PRESIDENT OF THE UNITED
STATES, ET AL.
PENNSYLVANIA, ET AL.

MATTHEW JAMES CLARK
FOUNDATION FOR MORAL LAW, INC.
1 DEXTER AVENUE
MONTGOMERY, AL 36104
301-503-6329
MATT@MORALLAW.ORG
DWIGHT G. DUNCAN
COLBE MAZZARELLA
333 FAUNCE CORNER ROAD
NORTH DARTMOUTH, MA 02747
508-985-1124
DDUNCAN@UMASSD.EDU
BLAINE H. EVANSON
GIBSON DUNN & CRUTCHER LLP
3161 MICHELSON DRIVE
IRVINE, CA 92612-4412
949-451-3805
BEVANSON@GIBSONDUNN.COM
MICHAEL F. FISCHER
CHIEF DEPUTY ATTORNEY GENERAL
PENNSYLVANIA OFFICE OF ATTORNEY
GENERAL
1600 ARCH STREET
SUITE 300
PHILADELPHIA , PA 19103
215-560-2171
MFISCHER@ATTORNEYGENERAL.GOV

DENISE M. HARLE
ALLIANCE DEFENDING FREEDOM
1000 HURRICANE SHOALS RD., NE
SUITE D-1100
LAWRENCEVILLE, GA 30043
800-835-5233
DHARLE@ADFLEGAL.ORG
KYLE D. HAWKINS
SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV
FRANCIS J. MANION
AMERICAN CENTER FOR LAW & JUSTICE
PO BOX 60
NEW HOPE, KY 40004
502-549-7020
GLENN J. MORAMARCO
ASSISTANT ATTORNEY GENERAL
NEW JERSEY ATTORNEY GENERAL'S OFFICE
RICHARD J. HUGHES COMPLEX
25 MARKET STREET
TRENTON, NJ 08625
609-376-3235
GLENN.MORAMARCO@LAW.NJOAG.GOV
MARK J. RIENZI
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 NEW HAMPSHIRE AVENUE, NW
SUITE 700
WASHINGTON , DC 20036
202-955-0095
MRIENZI@BECKETFUND.ORG

RICHARD A. SAMP
NEW CIVIL LIBERTIES ALLIANCE
3815 N. RIDGEVIEW ROAD
ARLINGTON, VA 22207
JAY ALAN SEKULOW
AMERICAN CENTER FOR LAW AND JUSTICE
201 MARYLAND AVE., NE
WASHINGTON, DC 20002
202-546-8890
SEKULOW@ACLJ.ORG
GEOFFREY R. SURTEES
AMERICAN CENTER FOR LAW & JUSTICE
6375 NEW HOPE ROAD
NEW HOPE, KY 40052
502-549-7020
GSURTEES@ACLJ.ORG
EDWARD L. WHITE
AMERICAN CENTER FOR LAW & JUSTICE
3001 PLYMOUTH ROAD
SUITE 203
ANN ARBOR , MI 48105
734-680-8007

